@OCKLE

2311 Douglas Street « E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B gm e fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-164

DAVID SAMARRIPA, ET AL.,
Petitioners,
v.
GREGORY KIZZIAH, WARDEN, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
THE INNOCENCE PROJECT, THE NATIONAL ASSOCIATION FOR PUBLIC DEFENSE,
CALIFORNIA ATTORNEYS FOR CRIMINAL JUSTICE, AND JARRETT M. ADAMS IN
SUPPORT OF PETITIONERS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 3607 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
State of Nebraska . LE .

Notary Public Affiant 38539

My Commission Expires Nov 24, 2020

 
